USDC IN/ND case 3:17-cr-00055-RLM-MGG document 206-1 filed 12/17/20 page 1 of 1
Case:G&bd32Q-1323ocui0eDtjr0@p5tt3IS34851 Filed: IBBftll MI20/2O2?)agejRdlges: 1

Mnxitb

(1 of 4)

fflnurt nf
For the Seventh Circuit
Chicago, Illinois 60604
Submitted September 3, 2020
Decided September 11, 2020

CERTIFIED COPY

Before
KENNETH F. RIPPLE, Circuit Judge
MICHAEL Y. SCUDDER, Circuit Judge

No. 20-1321
EDWARD BISHOP,
Petitioner-Appellant,

Appeal from the United States District
Court for the Northern District of
Indiana, South Bend Division.

v.
No. 3:19cv373
UNITED STATES OF AMERICA,
Respondent-Appellee.

Robert L. Miller, Jr.,

Judge.
ORDER
Edward Bishop filed in the district court a notice of appeal from the denial of his
motion under 28 U.S.C. § 2255 and from the denial of his Rule 59(e) motion, as well as
an application for a certificate of appealability. This court has reviewed the final order
of the district court and the record on appeal. We find no substantial showing of the
denial of a constitutional right. See 28 U.S.C. § 2253(c)(2).
Accordingly, the request for a certificate of appealability is DENIED. The court
considered Mr. Bishop's motions to supplement the record on appeal. To the extent
they raise arguments that Mr. Bishop did not present to the district court, those
arguments are waived. See Fryer v. United States, 243 F.3d 1004,1012 (7th Cir. 2001).
Mr. Bishop's motion to amend his notice of appeal is DENIED as unnecessary.
Mr. Bishop's motion to proceed in forma pauperis is also DENIED.

10/09/20
20

15

Order issued GRANTING motion to extend time to file petition for rehearing en
banc to the extent that appellant’s petition for rehearing en banc was accepted for
filing by this court on October 8, 2020. IT IS FURTHER ORDERED that the
motion is DENIED to the extent appellant requests that the clerk of this court send
him a copy of a petition for writ of certiorari to the Supreme Court, a motion to
proceed in forma pauperis in the Supreme Court, and a petition for rehearing en
banc. [13] TDK [15] [7113643] [20-1321] (ER) [Entered: 10/09/2020 09:42 AM]

USDC IN/ND case 3:19-cv-00373-RLM document 10 filed 01/31/20 page 1 of 7

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF INDIANA
SOUTH BEND DIVISION
EDWARD BISHOP,

)

Petitioner,

)

Cause No. 3:19-CV-373 RLM
(Arising from 3:17-CR-55 RLM)

v.

UNITED STATES OF AMERICA,
Respondent.

)
)
)
)

OPINION AND ORDER
On July 31, 2019 the court denied several motions filed by Mr. Bishop
requesting that the court: 1) vacate his conviction and sentence under 28 U.S.C.
§ 2255; 2) allow for document production regarding collateral attack on his
sentence and conviction; 3) allow discovery regarding his collateral attack; 4)
return certain seized property; 5) release Mr. Bishop from custody with a
recognizance bond; and 6) grant summary judgment on all pending requests.
Mr. Bishop asks the court to alter or amend portions of its order pursuant to
Federal Rule of Civil Procedure 59(e). In the alternative, Mr. Bishop requests a
certificate of appealability. Mr. Bishop later filed several motions to supplement
his motion to alter or amend its judgment pursuant to Federal Rule of Civil
Procedure 15(d).
Mr. Bishop requested leave to supplement his motion to alter or amend
pursuant to Federal Rule of Civil Procedure 15(d). The court can allow a party to
serve a supplemental pleading “setting out any transaction, occurrence, or event
that happens after the date of the pleading to be supplemented.” F.R.C.P. Rule

USDC IN/ND case 3:19-cv-00373-RLM document 10 filed 01/31/20 page 2 of 7

15(d). Mr. Bishop doesn’t want to inform the court of anything that occurred
after he filed the pleading, but to clarify the issues. Since Mr. Bishop has no
attorney, the court will construe his motion to supplement as a motion to amend.
Parker v. Four Seasons Hotels, Ltd., 845 F.3d 807, 811 (7th Cir. 2017) (“A trial
court is obligated to liberally construe a pro se plaintiffs pleadings.”). The court
“should freely give leave” to amend when justice so requires. Fed.R.Civ.P.
15(a)(2). The court gives Mr. Bishop leave to amend, and so considers the
arguments provided in his motions when reaching the determinations that
follow.
A court may grant a Rule 59(e) motion only if the movant clearly
establishes: "(1) that the court committed a manifest error of law or fact, or (2)
that newly discovered evidence precluded entry of judgment.” Cincinnati Life Ins.
Co. v. Bevrer. 722 F.3d 939, 954 (7th Cir. 2013) (internal citation omitted).
Mr. Bishop alleges several manifest errors of law and fact. First, he alleges
that the court failed to construe his § 2255 petition liberally and erred by
agreeing with the government’s arguments. The court must give liberal
construction to the pleadings of a pro se litigant, Parker v. Four Seasons Hotels,
Ltd., 845 F.3d at 811, but the court also must apply the law correctly. The court
construed Mr. Bishop’s pleadings liberally and reached the required legal
conclusions. Agreement with the government’s arguments wasn’t error. While
the court of appeals has cautioned that arguments in a government brief aren’t
evidence, see United States v. Stevens. 500 F.3d 625, 628 (7th Cir. 2007)
(“arguments in a Government brief, unsupported by documentary evidence, are

2

USDC IN/ND case 3:19-cv-00373-RLM document 10 filed 01/31/20 page 3 of 7

not evidence”), it has never said that a district court can’t agree with the
government’s legal arguments. The court didn’t err in its construction of Mr.
Bishop’s petition or in agreeing with the legal arguments made by the
government.
Mr. Bishop hasn’t clearly established that the court committed an error of
law or fact in determining that his trial and appellate counsel wasn’t
unconstitutionally ineffective. To prevail on an ineffective assistance of counsel
claim, the petitioner must show both that his attorney’s performance “fell below
an objective standard of reasonableness” and that there is a reasonable
probability that, but for his attorney’s errors, the result of the proceeding would
have been different. Strickland v. Washington. 466 U.S. 668, 688-693 (1984).
Mr. Bishop alleges that the government and court didn’t respond to his
ineffective assistance of counsel claims as to (1) trial counsel’s failure to file a
petition to dismiss count one of the indictment; (2) trial counsel’s failure to object
to the district court’s errors in the jury instructions and verdict form; (3)
appellate counsel’s failure to attack the defective indictment; (4) appellate
counsel’s failure to attack the constructive amendment; and (5) appellate
counsel’s failure to preserve the issue of a Rule 29 acquittal. The court addressed
each of these grounds in its previous order.
Mr. Bishop mistakenly says that the court agreed that his trial and
appellate counsel’s failure to raise some issues deprived him of his Sixth
Amendment rights of effective assistance of counsel. The court agreed that his
trial and appellate counsel didn’t raise those issues, but the court decided that

3

USDC IN/ND case 3:19-cv-00373-RLM document 10 filed 01/31/20 page 4 of 7

his attorneys weren’t unconstitutionally ineffective because the indictment
wasn’t defective, the jury instructions were proper, and there was sufficient
evidence of each required element of the crime. The attorney’s choices were
reasonable for the same reasons provided in the discussion of constructive
amendment and insufficient evidence that follow, and because the indictment
wasn’t defective.
Mr. Bishop claims that the indictment was defective because it didn’t
specify what drug trafficking crime Mr. Bishop committed. The indictment wasn’t
defective. It contained each of the required elements and notified Mr. Bishop of
what the government intended to prove. See United States v. Vaughn. 722 F.3d
918, 926 (7th Cir. 2013). The indictment identified the date and location of the
conduct, laid out the elements, and identified the statute under which Mr.
Bishop was charged. Mr. Bishop contends that the indictment should specify
what type of drug trafficking offense he committed, but the court of appeals
hasn’t gone that far. United States v. Franklin, 547 F.3d 726, 730 (7th Cir. 2008).
Mr. Bishop also maintains that the indictment was defective because it didn’t
identify a specific firearm, but “the government isn’t required to charge a specific
firearm.” United States v. Pierson. 925 F.3d 913, 922 (7th Cir. 2019). The
decision of Mr. Bishop’s trial counsel to not file a motion to dismiss based on a
defective indictment was reasonable. The court found that the trial and appellate
counsel weren’t unconstitutionally ineffective, and Mr. Bishop has provided no
authority to cause the court to believe that it made a manifest error of law or
fact.

4

USDC IN/ND case 3:19-cv-00373-RLM document 10 filed 01/31/20 page 5 of 7

Mr. Bishop argues that count one of the indictment was defective and
didn’t provide him with notice about the accusations against him, and that the
court erred in not addressing the merits of this claim. He claims that the defective
indictment deprived the court of jurisdiction to adjudicate his case, and that he
can now attack the indictment collaterally. Mr. Bishop starts from a mistaken
premise: defects in an indictment don’t deprive the court of jurisdiction over the
case. United States v. Willeumier. 98 F. App'x 558, 559 (7th Cir. 2004) (citing
United States v. Cotton. 535 U.S. 625 (2002)). Mr. Bishop also argues that
Criminal Rule 12 allows him to challenge the indictment at any time while the
case is pending, but Criminal Rule 12(b)(3)(B) provides that defects in an
indictment must be raised before trial. The court couldn’t consider his objection
because Mr. Bishop did not show cause. Fed. R. Crim. P. 12(c)(3). The court
properly determined that Mr. Bishop didn’t preserve his claim that the
indictment was defective.
Mr. Bishop argues that the conviction must be vacated because the district
court constructively amended his indictment. The court didn’t constructively
amend Mr. Bishop’s indictment. A grand jury indicted Mr. Bishop for a violation
of 18 U.S.C. § 924(c), and a jury returned a verdict of guilty on that count.
Mr. Bishop alleges that the evidence at trial was insufficient to convict him
of a federal drug trafficking crime. A conviction under § 924(c) requires legally
sufficient proof that the predicate crime was committed. Johnson v. United
States. 779 F.3d 125, 129 (2d Cir. 2015). Mr. Bishop argued in his petition that
because the evidence didn’t demonstrate a large enough amount of marijuana,

5

USDC IN/ND case 3:19-cv-00373-RLM document 10 filed 01/31/20 page 6 of 7

he was factually innocent of discharging a firearm in furtherance of a drug
trafficking crime. Again, Mr. Bishop’s understanding of the law is faulty: the
government wasn’t required to prove that Mr. Bishop possessed a specific
quantity of marijuana, only that Mr. Bishop possessed the marijuana with the
intent to distribute. United States v. Smith. 34 F.3d 514, 519 (7th Cir. 1994)
(“quantity is not a substantive element of a § 841(a) offense.”) (internal citations
omitted).
AMr. Bishop claims that the court erred in its finding that agencies had
asked that the property be held until Mr. Bishop’s appeals were exhausted; that
the State of Indiana and federal government didn’t give Mr. Bishop notice of
forfeiture before seizing his assets; and that the court can’t hold Mr. Bishop’s
property. Mr. Bishop is correct that the request to hold the property relates to
Alain Kiiwon Powell, Jr.’s appeal, rather than his own, but that misstatement
doesn’t impact the outcome of the issue. Mr. Bishop’s claim that the State of
Indiana and federal government didn’t give him notice of the forfeiture is
misplaced because the property isn’t being forfeited. The court didn’t err in
allowing the Warsaw Police Department to hold Mr. Bishop’s property because
the Tippecanoe County Deputy Prosecuting Attorney has requested that the
property be held until Mr. Powell’s appeal has concluded. The court didn’t err
when it denied Mr. Bishop’s request to immediately return the property.
Mr. Bishop contends that the court should have granted summary
judgment on his § 2255 petition because the government didn’t “dispute, deny
or otherwise answer Sections 12 (a,b,c,d) of the petition.” The court’s reading of

6

USDC IN/ND case 3:19-cv-00373-RLM document 10 filed 01/31/20 page 7 of 7

the government’s submission differs from Mr. Bishop’s understanding. The
government addressed Mr. Bishop’s contentions by arguing that his legal
interpretations were inaccurate. The court’s denial of summary judgment was
not a manifest error of fact or law.
According to Rule 11 of the Rules Governing Section 2255 Proceedings for
the United States District Courts, a “court must issue or deny a certificate of
appealability when it enters a final order adverse to the applicant.” Issuance of
a certificate of appealability requires the court to find that Mr. Bishop has made
“a substantial showing of the denial of a constitutional right.” 28 U.S.C. §
2253(c)(2). For the reasons already discussed, he hasn’t made such a showing,
and the court declines to issue a certificate of appealability.
For these reasons, the court:
(1) GRANTS Mr. Bishop’s motions to supplement [Docs. Nos. 158, 159
161, 163, 164];
(2) DENIES Mr. Bishop’s motion to alter or amend judgment [Doc. No.
154]; and
(3) DECLINES to issue a certificate of appealability.
SO ORDERED.
ENTERED: January 31. 2020
/s/ Robert L. Miller. Jr.________
Judge, United States District Court
Cc: E. Bishop

7

Case: 20-1321

Document: 16

Filed: 12/09/2020

Pages: 1

jifahs Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
December 9, 2020
Before
KENNETH F. RIPPLE, Circuit Judge
MICHAEL Y. SCUDDER, Circuit Judge

No. 20-1321
EDWARD BISHOP,
Petitioner-Appellant,

Appeal from the United States District
Court for the Northern District of
Indiana, South Bend Division.

v.
No. 3:19-cv-00373-RLM
UNITED STATES OF AMERICA,
Respondent-Appellee.

Robert L. Miller, Jr.,
Judge.

ORDER
On consideration of the petition for rehearing and for rehearing en banc, no judge
in active service requested a vote on the petition for rehearing en banc, and both judges
on the original panel voted to deny panel rehearing.
It is therefore ordered that the petition for rehearing and for rehearing en banc is
DENIED.

i

